IN THE SUPREME COURT OF THE UNITED STATES
No. 20-901
Spring Branch Independent School District,
Petitioner,
v.
O.W., by next friend Hannah W.,
Respondent
CERTIFICATE OF SERVICE

I, Christopher P. Borreca, counsel for National School Boards Association,
Texas Association of School Boards Legal Assistance Fund, and Mississippi School
Boards Association, hereby certify that on this 4th day of February, 2021, I caused
three copies of the Amici Curiae Brief of National School Boards Association, Texas
Association of School Boards Legal Assistance Fund, and Mississippi School Boards
Association in Support of Petitioner to be served by overnight delivery on the
following counsel:
Amy C. Tucker
Counsel of Record
Jonathan G. Brush
Rogers, Morris & Grover, LLP
5718 Westheimer Road, Suite 1200
Houston, Texas 77057
atucker@rmgllp.com

Sonja D. Kerr
Counsel of Record
Connell Michael Kerr, LLP
9600 Great Hills Trail,
Suite 150W
Austin, TX 78759
sonja@cmklawfirm.com
Dorene J. Philpot
Dorene J. Philpot Law
7314 Offats Pointe
Galveston, Texas 77551
dphilpotlawtexas@gmail.com

Attorney for Petitioner

Attorneys for Respondent

I further certify that all parties required to be served have been served.

_________________________________
Christopher P. Borreca
THOMPSON & HORTON LLP
3200 Southwest Freeway, Suite 2000
Houston, Texas 77027
(713) 554-6740
cborreca@thompsonhorton.com

